      EFFECTIVE PATERNITY ESTABLISHMENT PRACTICES


                      EXECUTIVE REPORT




            VICI.r.




'0


      ;,1r\rolJa



 OFFICE OF INSPECTOR GENERAL
     OFFCE OF ANALYSIS AN INSPECTONS
                                          JANUARY 1990
                             Offce of Inspector General

The mission of the Offce of Inspector General (OIG) is to promote the efficiency,
effectiveness and integrty of programs in the United States Department of Health
and Human Servces (HHS). It does this by developing methods to detect and
              waste and abuse. Created by statute in 1976, the Inspector General
prevent fraud ,
keeps both the Secretary and the Congress fully and currently informed about the
programs or management problems and recommends corrective action. The OIG
performs its mission by conducting audits, investigations and inspections with
approximately 1300 staff strategically located around the country.


                          Offce of AnalysIs and InspectIons

This report is produced by the Office of Analysis   and Inspections (OAl), one of the
three major offices within the OIG. The other two are the Offce of Audit and the
Offce of Investigations. The OAI conducts inspections which are tyically short-term
studies designed to determine program effectiveness, effciency and vulnerabilty to
fraud and abuse.




                                     This Repon

Entitled " Effective Paternity Establishment Practices: Executive Report," this report
describes effective State and local paternity establishment practices. A companion
report provides a more detailed treatment of this subject for those readers interested
in examining it in greater depth.

This report was prepared under the direction of Ralph Tunnell , Regional Inspector
General and Chester B. Slaughter, Deputy Regional Inpector      General of Region VI
Office of Analysis and Inspections. Participating in this project were the following
people:

Judith V. Tyler             Project Leader, Dallas, OAI

Donna Hopper                Program Analyst, Dallas, OAI

Darlean Spangenberger       Co-operative Education Student
                            Texas Woman s University

Frank Almendarez            Program Analyst (Graphics), Dallas , OAI

Joseph L Penkrot            Program Analyst, Chcago, OAI

Penny R. Thompson           Program Specialist, Washington, D. C., OAI
     EFFCT PATERN 
           ESTABLISHMNT       PRACTCES


                      EXECU             REPORT




RICHAD P. KUSSEROW
INSPECfOR GENERA

OAI 06- 89- 00910                                   JANUARY 1990
                                  EXCU SUMY

PUROSE
This report descn"beseffective State and local paternity establishment practices and
barrers to a successful paternity establishment program.

BACKGROUN

The Congress, concerned by the increasing costs of the Aid to Familes with
Dependent Children (AFC) program, amended the Social Security Act in 1975,
1984 and 1988 to create and then    to strengthen the Child Support Enforcement
(CSE) program. The 1988 amendments required State CSE programs , for the first
time , to meet a specifc paternity establishment percentage.

Two recent evaluations of States' performance in child support enforcement
conducted by a U. S. House of Representatives subcommittee and the General
Accounting Offce show that many States are not pursuing paternity establishment
vigorously and successfully. These findings have serious cost implications for the
States because States are subject to fiscal penalties if they cannot meet their
paternity establishment percentage goal and most paternity suits are brought by
single mothers applying for AFC.

We intervewed 77 managers , supervsors and legal personnel at 13 effective practice
sites about barriers and key improvements to the paternity establishment process.
We defined effective practices as procedures which improve the number of
 paternities established ,   case decision accuracy and/or case management effciency.


 EFFCT PRACfCF SUMY
 States should consider adopting the following seven effective practices to improve
 paternity establishment in their Child Support Enforcement programs.

 SOLICI SUPPORT


 Actively solicit the support and commitment of top management, the judiciary,
 legislators and the community for the paternity establishment program. Through
 them the effective practice sites were able to increase program resources , streamline
 adjudication, increase paternity establishments and change paternity laws.
                                             ...... ......
                                                      .................  ............................
                                                                        ...........
                                                              ......... ............ ......           ....... .....................................




                                         TABLE OF               CONT



EXCU SUM                         Y........................................................................................................



INODUCfON
                                                                                ............................................................. 1
   Purpose........................... ..... 


                                                                                        ...................... .......... ...................... 1
   Background................... .............. 


   Method 0 logy................................................................"" .................................................. 4


EFFCT PRACfCE SUMY
   Solicit Support for the Paternity Establishment Program................................... 6

   Garify Responsibilty for Obtaining Intake Information.................................... 6

    Promote Improved Parental Cooperation............................................................... 7

    Streamline Adjudication of Paternity Cases...................................................... 7

    Institute Effective Case Management Controls................................................. 8

    S im p lify   Case Processing.... ....................

    Upgrade and Improve Staff U tiliz tion............................................................ .......... 9
             EF PATE
                  EXCU
                                           FSABUSHM PRACfCF
                                             RERT

                                     OAI   0610
                                     INODUCfON

PURE
This report describes    effective State and locl   paternty establishment   practices and
barrers to a successful paternity establishment program.


BACKGROUN
Increasing Program Costs

The Congress, concerned by the increasing costs of the Aid to Familes with
Dependent Children (AF) program , amended the Social Security Act in 1975,
1984 and 1988 to create and then to strengthen the Child Support Enforcement
(CSE) program. The 1988 amendments required State CSE programs , for the first
time , to meet a specific paternity establishment percentage.

In addition ,   according to a "The New York Times " article (July 21, 1989) nearly
285                                                   Most of these paternity suits
      000 paternity suits are fied nationwide every year.
are brought by CSE agencies in behalf of single mothers who have applied for
AFC. Women receiving AFC have assigned their support rights to the CSE
agency. If regular child support payments were made following paternity
establishment, AFC program costs for these familes may be reduced.


Recent Evaluation of States ' Performance

Two recent evaluations of States ' performance in child support enforcement
however, show that many States are not pursuing paternity establishment vigorously
and successfully. In October 1988, the House Subcommittee on Public Assistance
and Unemployment Compensation released a report card of performance. The
mean State paternity establishment rate was 31 percent (paternities established in
fiscal year 1987 divided by births to unmarred mothers in 1985). Thirt- two States
scored below 30 percent; 45 scored below SO percent.



In April 1987, the General Accounting Offce ( Child Support: Need to Improve
Efforts to Identify Fathers and Obtain Support Orders. GAOIHRD- 87- 37) found that
..        . ...
             . ..
        ..... .......
                    ..   ..
                    .. ....
                         "  ...,....
                           .....  .. ..."
                              .......   .....
                                      " '"   ...
                                              .,...
                                           . .........
                                             ,-..         .......
                                                             ..... ... '".....
                                                   .....,,".....
                                                        ......      .. ... .
                                                                         ....                                        :.




                                                                                 Bloo tess are. available and accessible.
                                                                                 Court persnnl    specialize in


                                                                                 Paternit/child. suppOrt adiudication..





     Therespoibiscaeworker.                                                to.
                                                                   as
                                                                     act

     establis paternit.                         as.     earf


     possbfe relaive to the birth of the.
     child or AFDC 
 applic3tion
              BARR I ERS AND IMPROVEMENTS
           THE PATERN I TV ESTABL I SHMENT PROCESS

                                                                   FA THER CANNOT BE SERVED



                                                                    LEGAL PROCESS COMPLEX

  AFDC/CSE COOPERATION
                                   BARRIERS
                                                                    BENCH DOES NOT A I 0 OR
                                                                    UNDERSTAND PAFERNI TY
     PROCESS DELAYS
                                                ESTABL I SHMENT


MOTHERS DO NOT UNDERSTAND             CASES LOST OR
               LEGAL SYSTEM INHIBITS
BENEF I TS OF PA TERN I TY            UNA HENDED                   PATERNITY ESTABLISHMENT

EST ABL I SHMENT


                                     I NADEQUATE LOCATE              PARENTS CANNOT AF FORD
       CASES LOST OR                 SOURCE I NFORMA T ION           BLOOD TESTS
       UNATTENDED


                                                                   FATHER FAILS TO ATTEND

     INSUFFICIENT STAFF             INSUFF ICIENT STAFF
           HEARINGS OR BLOOD TEST



                                    FATHER CANNOT BE
                     INSUFFICIENT COURT

       MOTHER ALLEGES               FOUND THROUGH                         TIME/PERSONNEL
       SHE DOES NOT                 AVAILABLE CHANNELS

       KNOW FATHER




                                        LOCATE                 CONFRONT             ADJUD I CATE
         INTAKE




     IMPROVE RELATIONS
                                          CONTRACT FOR LEGAL SERV ICES
     WI TH AFDC


      CSE DOES I TS OW                                                        CHANGE LAWS

      DATA COLLECT ION


  REDES IGN OR STREAML I NE
  PROCEDURES                      IMROVEMENTS                         EXPED I TE - ALLOW
                                                                      VOLUNTARY ADMISSIONS


 IMPROVE   I NFORMA T ION AND                                             EDUCATE JUDICIARY
 PRESENTATION OF PATERNITY
                                               AND PUBL I C
 ESTABL I SHMENT BENEF I TS

                                                                    DEVELOP PROCEDURES THAT

     STRENGTHEN CASE                                                 NEGA TE OR REDUCE NE
     MANAGEMENT CONTROLS                                             FOR COURT T I


                                                                          USEHEARINGOFFICERS
    ADD/SPECIALIZE STAFF             ADD/SPECIALIZE STAFF
                OR MED I A TORS



                                     STRENGTHEN CASE                      AGENCY FRONTS BLOOD
       APPL Y SANCT IONS             MANAGEMENT CONTROLS                  TEST FEES



                                   CONTRACT FOR INFORMAT ION         BLOOD DRAWS ON PREM I SES
      PERS I STENT CAREFUL         SOURCES; E. G. CRED IT            WHI LE PARENTS ARE THERE

      INTERVIEWING                 BUREAUS


  I NTERV I EW MOTHER ON DAY        SOLICIT AID/INFORMATION         I NCREASE COURTS / PERSONNEL
  SHE ALSO APPL I      FOR AFDC     FROM THE COMUNI TY
PROMOT IMROVE PARAL (XPERTION
Developing better information or techniques for convincing the parents to cooperate
with Chld Support improves the paternity establishment process.

Mothers and fathers are perceived      as major barrers to paternty  establishment. At
intake , especially, the mothers are often reluctant to divulge information
                                                                             about the
                                             establishment
putative father, to the point that paternity 
               casework cannot be started
or is not productive. The effective practice sites, in addition to invoking financial
penalties for non-cooperation (removal of the mother from the AFC grant or
denial of the   AFC application for assistance if they have same day intake
intervews), use other strategies for overcoming parental resistance. They:

                strive to convince the mothers, in either emotional or practical terms
                of the benefits of paternity establishment to the chid,



                gie the parente s) more detailed and accurate information about their
                responsibilties and the establishment process , or

                use careful, persistent intervewing technques for mothers alleging they
                don t know who the father is.


ST                 ADJUICATION OF          PATE FSABUSHM
 The effective practice sites simplify adjudicative procedures whenever possible under
 State law and try to minimize time spent in court.

 Within their legal framework, the effective   practice sites try to simplify   approaches
 when possible and to streamline the required procedures. They improved
 adjudication by:



                 encouragi        untaIY admissions of paternity. Most of the sites have a
                 mechanism whereby a man can legally admit paternity without court
                 involvement. Several sites implemented these voluntary procedures in
                 recent years , and found they improve cost savings as well as timeliness.
                 Some sites either specially train caseworkers or use special negotiators
                 to work out agreements with the fathers.

                 taking default judgments. Most of the sampled sites are authoried to
                 invoke them and make full use of this paternty establishment tool.

                          ni easy access to blood  testing. Most of the sites pay for the
                 tests initially, and then later, may try to recover their costs from the
                                                                 lapping staff duties
tyes or information sections, elimination of duplicative or over-
and at intake , screening out clients who cannot use child support enforcement
servces are examples of efficiency improvements at these sites.


UPGRAE AN IMROVE STAF UTTION
Re-evaluating the number, duties , capabilties and division of labor of present staff
can improve the paternity establishment process.

A basic , but key, improvement at six effective practice sites was hiring additional
staff just to handle the existing caseload. Nine sites specialize staffs or use teams
because it improves program knowledge and case processing. Some sites create
unique positions to facilitate paternity establishment such as a paternity coordinator
to act as liaison between courts and attorneys or a blood test consultant to schedule
appointments and negotiate payments. Ten contract for paternity establishment
servces , other than blood testing, such as legal servce, legal counselor locate
information.




 For Further Information:  A detailed technical version of the report and additional
 copies of this condensed report are available from the Superintendent of Documents,
 Government Printing Offce , Washington, D. C. 20402.
